OIG Investigative Reports, New York Doctor Indicted for Student Loan Fraud
Skip to main contentAbout UsContact UsFAQs Language Assistance Englishespañol中文: 繁體版Việt-ngữ한국어TagalogРусский
U.S. Department of Education
Search for:
Toggle navigation
U.S. Department of Education
Student Loans
Grants
Laws
Data
About ED
OFFICES
Home
Reports & Resources
Programs/Initiatives
News
Office Contacts
Investigative Reports
FOR IMMEDIATE RELEASE:
Indiana, March 5, 2003
Contact Person
SUSAN W. BROOKS
United States Attorney
(317) 226-6333
10 West Market Street, Suite 2100
Indianapolis, Indiana 46204
New York Doctor Indicted for Student Loan Fraud
Susan W. Brooks, United States Attorney for the Southern District of Indiana, announced that MAX NOEL, 39, N. Babylon, New York, was indicted by a federal grand jury sitting in Indianapolis for student loan fraud, following an investigation by the U.S. Department of Education, Office of Inspector General.
The indictment alleges that Max NOEL engaged in a fraud on student loan programs guaranteed by the United States Department of Education, by submitting false student loan applications in order to pay for his education at schools that were not eligible to receive Department of Education guaranteed loans. The indictment alleges that from, 1996 to 1999 Noel submitted applications for Department of Education guaranteed loans that contained false or fraudulent information, such as certifications from schools that he did not attend and that did not certify the application.
According to Assistant United States Attorney Winfield D. Ong, who is prosecuting the case for the government, NOEL faces a maximum possible prison sentence of 5 years and a maximum possible fine of $250,000. An initial hearing will be scheduled for NOEL before a U.S. Magistrate Judge in Indianapolis.
The indictment is an allegation only, and the defendant is presumed innocent unless and until proven guilty at trial or by guilty plea.
Top
Printable view
Share this page
Last Modified: 03/02/2005
How Do I Find...
Student loans, forgiveness
College accreditation
No Child Left Behind
FERPA
2015 Budget Proposal
FAFSA
More >
Information About...
Transforming Teaching
Family and Community Engagement
Early Learning
K-12 Reforms
More >
Connect
Facebook
Twitter
YouTube
Email
RSS
Google+
More >
MISUSED
FOIA
OIG Fraud Hotline
Our mission is to promote student achievement and preparation for global competitiveness by fostering educational excellence and ensuring equal access.
Student Loans
Repaying Loans
Defaulted Loans
Loan Forgiveness
Loan Servicers
Grants & Programs
Apply for Pell Grants
Grants Forecast
Open Grant Competitions
Find Grant Programs by Eligibility
Laws & Guidance
No Child Left Behind
IDEA
Civil Rights
Significant Guidance
Data & Research
Education Statistics
Integrated Postsecondary Education Data System
Nation's Report Card
What Works Clearinghouse
About Us
Contact Us
Jobs
News
FAQs
Budget, Performance
Notices FOIAPrivacySecurityInformation qualityInspector GeneralWhitehouse.govUSA.govBenefits.govRegulations.gov